TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Tax Practitioners Promoting Abusive
                   Tax Shelters Are Still Able to Represent
                       Taxpayers Before the Internal
                              Revenue Service



                                     February 20, 2009

                           Reference Number: 2009-10-039




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 20, 2009


 MEMORANDUM FOR DIRECTOR, OFFICE OF PROFESSIONAL RESPONSIBILITY

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Tax Practitioners Promoting Abusive Tax Shelters
                             Are Still Able to Represent Taxpayers Before the Internal Revenue
                             Service (Audit # 200710041)

 This report presents the results of our review of the Office of Professional Responsibility’s
 (OPR) actions on licensed tax practitioners that engaged in abusive tax shelter transactions. The
 overall objective of this review was to determine whether the OPR is effectively identifying and
 taking appropriate actions against those licensed tax practitioners who have employed or
 promoted abusive tax shelters. This audit was included as part of our Fiscal Year 2008 Annual
 Audit Plan under the major management challenges of Tax Compliance Initiatives and Taxpayer
 Protection and Rights.

 Impact on the Taxpayer
 The OPR plays an important role in regulating the conduct of licensed tax professionals who act
 as power of attorneys for taxpayers who might be involved in an audit, collection issues, or
 appeal of an Internal Revenue Service (IRS) determination. We found that the OPR was
 unaware of a significant number of licensed tax practitioners who were assessed penalties,
 sentenced in a criminal proceeding, or enjoined for tax shelter violations. As a result, these tax
 practitioners were still eligible to represent taxpayers before the IRS. Practitioner misconduct
 can serve to erode public confidence in the tax system and create unfortunate consequences for
 taxpayers relying on unscrupulous tax practitioners.

 Synopsis
 Abusive tax shelters are an area of concern to Congress and continue to present formidable
 challenges to the IRS. To address tax shelter violations and other misconduct issues, the IRS has
                                  Tax Practitioners Promoting Abusive
                        Tax Shelters Are Still Able to Represent Taxpayers Before
                                      the Internal Revenue Service


developed a number of strategies to ensure attorneys, accountants, and other tax practitioners
adhere to professional standards and follow the law. These strategies include outreach and
education to tax practitioners and IRS operating divisions related to the standards of conduct, the
IRS role in enforcing the standards, and the use of disciplinary actions when appropriate.
The OPR works closely with the other IRS operating divisions to identify improper practitioner
behaviors that have an impact on tax administration but generally relies on IRS employees to
refer any potential practitioner misconduct. While the IRS has established a referral system for
employees to report this information to the OPR, we determined the referral process was not
working effectively. We found that the OPR was unaware of a significant number of licensed
tax practitioners who engaged in tax shelter violations. As a result, the OPR did not initiate an
investigation to determine whether any sanctions were necessary to prevent disreputable
practitioners from continuing to be allowed to represent taxpayers. Specifically, the OPR was
not aware of 160 practitioners assessed tax penalties, permanently enjoined by a Federal Court,
or criminally sentenced for abusive tax shelter activities that caused loss to the Federal
Government of approximately $34.9 million. 1 These practitioners are still eligible to represent
9,766 taxpayers before the IRS.
During our audit, we obtained IRS data readily available outside of the OPR to identify
potentially disreputable tax practitioners engaged in abusive tax shelters that had not been
referred to the OPR as required. We discussed with OPR management the feasibility of OPR
personnel performing similar proactive analyses to identify tax practitioners who have been
assessed penalties, received a criminal sentence, or enjoined for potentially disreputable
behavior. OPR management agreed that obtaining some available information from IRS systems
is a sound approach; however, management stated that this would generally require extensive
additional information gathering and case building that is not supported by their current
resources.

Recommendations
We recommended that the Director, OPR, take the following actions: 1) determine whether
additional disciplinary actions are warranted for the tax practitioners penalized for abusive tax
shelter violations; 2) establish written procedures for controlling and reviewing case referrals on
the inventory system; 3) determine whether additional disciplinary actions are warranted for the
tax practitioners who were permanently enjoined for abusive tax shelter violations; 4) determine
whether additional disciplinary actions are warranted for those tax practitioners sentenced for
abusive tax shelter violations; 5) undertake additional outreach efforts with other IRS functions
to increase awareness of the requirement to refer to the OPR licensed tax practitioners involved



1
    See Appendix IV for more detailed information.
                             Tax Practitioners Promoting Abusive
                   Tax Shelters Are Still Able to Represent Taxpayers Before
                                 the Internal Revenue Service


in disreputable behavior; and 6) develop a methodology when resources become available to
proactively identify licensed tax practitioners who might have engaged in disreputable activity.

Response
IRS management agreed with all of our recommendations. The OPR will review the identified
143 tax practitioners penalized for abusive tax shelter actions and take appropriate action. To the
extent these practitioners are not within the OPR’s jurisdiction, the Director, OPR, will refer the
individuals to the appropriate IRS function. In addition, the OPR is in the process of revising its
Internal Revenue Manual guidelines governing the control and processing of each complaint,
referral, license application, and/or renewal that is input to their information management
system. Further, the OPR will also ensure that each of the nine cases involving abusive tax
shelters injunctions and the eight cases involving practitioners subject to criminal prosecution are
reviewed for appropriate action. If these individuals do not fall within the OPR’s jurisdiction,
the Director, OPR, will refer the individuals to the appropriate IRS function. The OPR will also
continue to provide awareness training to both internal and external stakeholders to ensure that
licensed tax practitioners involved in potentially disreputable behavior are brought to the
attention of the OPR and are appropriately sanctioned. Finally, the OPR will look to develop and
sustain a more proactive model of case identification and development, as resources permit.
Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.
                                    Tax Practitioners Promoting Abusive
                          Tax Shelters Are Still Able to Represent Taxpayers Before
                                        the Internal Revenue Service




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Tax Practitioners Engaged in Abusive Tax Shelter Actions
          Are Still Able to Practice Before the Internal Revenue Service...................Page 5
                    Recommendation 1:........................................................Page 7

                    Recommendation 2:........................................................Page 8

                    Recommendation 3: .......................................................Page 9

                    Recommendations 4 through 6:.........................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Outcome Measures...............................................................Page 16
          Appendix V – Internal Revenue Code Practitioner Penalties.......................Page 19
          Appendix VI – Management’s Response to the Draft Report ......................Page 20
                Tax Practitioners Promoting Abusive
      Tax Shelters Are Still Able to Represent Taxpayers Before
                    the Internal Revenue Service




                   Abbreviations

CAF          Centralized Authorization File
DOJ          Department of Justice
IRS          Internal Revenue Service
OPR          Office of Professional Responsibility
                                 Tax Practitioners Promoting Abusive
                       Tax Shelters Are Still Able to Represent Taxpayers Before
                                     the Internal Revenue Service




                                              Background

An abusive tax shelter is a tax transaction or scheme that shelters income from normal taxation
by taking an unrealistic position. A 2006 Senate report 1 included an estimate that Americans
now have more than $1 trillion in assets offshore and illegally evade between $40 and $70 billion
in United States taxes each year through the use of offshore tax schemes alone. Abusive tax
shelters are an area of concern to Congress and continue to present formidable challenges to the
Internal Revenue Service (IRS).
In the IRS’ 2005-2009 Strategic Plan, the IRS stated that it would vigorously enforce the law to
stop willful noncompliance through tax shelters. One area in which the IRS has focused its
enforcement is on tax practitioners who promote abusive tax avoidance transactions such as
abusive tax shelters. The IRS has developed a number of strategies to ensure attorneys,
accountants, and other tax practitioners adhere to professional standards and follow the law.
These strategies include outreach and education to tax practitioners and IRS operating divisions
related to the standards of conduct, the IRS role in enforcing the standards, and the use of
disciplinary actions when appropriate. As a means of deterrence, the IRS has tools at its disposal
including injunctions, 2 criminal sanctions, and monetary penalties against persons who
participate in or promote abusive tax shelters.
When the IRS determines that a licensed tax practitioner has participated in or promoted an
abusive tax shelter, the IRS’ Office of Professional Responsibility (OPR) should be advised so it
can take appropriate action. 3 The OPR is responsible for regulating licensed tax practitioners
who represent taxpayers before the IRS by setting and enforcing standards of competency,
integrity, and conduct. The OPR provides oversight of licensed tax practitioners based on the
regulations in Treasury Department Circular No. 230 (Circular 230). 4 Circular 230 is the legal
authorization for the OPR to institute proceedings against tax practitioners who violate these
regulations. The OPR may impose disciplinary actions through private reprimand, censure
(a public reprimand), suspension, or disbarment.


1
  Tax Haven Abuses: The Enablers, the Tools, and Secrecy (United States Senate Permanent Subcommittee on
Investigations, dated August 1, 2006).
2
  An injunction is a writ or order from a court that enjoins or prohibits a person or group from carrying out a given
action, or ordering a given action to be done. The IRS must initiate a proceeding for an injunction to be imposed
against a taxpayer.
3
  If an abusive tax shelter involves a non-licensed authorized representative such as an unenrolled paid preparer,
then the IRS Small Business/Self-Employed Division is responsible for investigating and regulating the possible
misconduct.
4
  Regulations Governing the Practice of Attorneys, Certified Public Accountants, Enrolled Agents, Enrolled
Actuaries, Enrolled Retirement Plan Agents, and Appraisers before the Internal Revenue Service.
                                                                                                               Page 1
                                 Tax Practitioners Promoting Abusive
                       Tax Shelters Are Still Able to Represent Taxpayers Before
                                     the Internal Revenue Service


In September 2007, the IRS updated Circular 230 after Congress passed legislation targeting
promoters and investors of abusive tax shelters. 5 The law was designed to impose penalties for
misconduct by tax shelter promoters, advisors, and investors. The current law also enables the
OPR to impose monetary penalties against licensed practitioners who fail to comply with
Circular 230 rules.
Over the past few years, the IRS has substantially increased the OPR’s budget and staffing to
help ensure that it has adequate oversight over licensed tax practitioners. In Fiscal Year 2002,
the OPR had a budget of $1.8 million and a staff of 15. By Fiscal Year 2007, the OPR had a
budget for oversight of approximately $5.4 million and was authorized a staff of 58, although
staffing difficulties have not allowed it to reach this maximum level.
In performing its oversight role, the OPR relies internally on IRS employees to refer to the OPR
any potential practitioner misconduct identified during an examination. Referrals should be
made to the OPR as soon as it appears that a practitioner might be in violation of Circular 230
regulations. The referral process is discussed in the various operating division’s policy manuals 6
and highlighted on the OPR’s web site. The OPR informed us that when a referral is received
from an IRS employee, it is evaluated to ensure that the tax practitioner is within the OPR’s
jurisdiction, the referral is actionable under Circular 230, and the practitioner is representing
taxpayers before the IRS. If so, the OPR opens an enforcement case and controls the case on its
inventory system.
The OPR works closely with the other IRS operating divisions to identify improper practitioner
behaviors that have an impact on tax administration. Both the IRS and OPR plan to use referral
information to develop IRS-wide coordinated strategies to deter, detect, and address such
practitioner misconduct. In Fiscal Year 2007, the OPR appointed a new Director to oversee the
enforcement function. One of the Director’s first acts was to help organize an internal IRS
conference to improve the level of communication of referral information.
This review was performed at the OPR in Washington, D.C., during the period October 2007
through August 2008. However, certain information needed to evaluate the OPR’s referral
process was not available. Specifically, the OPR does not maintain complete information related
to the number and source of referrals received. These issues are discussed in further detail in the
Results of Review section. With the exception of these impairments, we conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions


5
  The American Jobs Creation Act of 2004 (Pub. L. No. 108-357, 118 Stat. 1418) was signed into law on
October 22, 2004.
6
  The Internal Revenue Manual is the official source for IRS policies, directives, guidelines, procedures, and
delegations of authority in the IRS.
                                                                                                                 Page 2
                             Tax Practitioners Promoting Abusive
                   Tax Shelters Are Still Able to Represent Taxpayers Before
                                 the Internal Revenue Service


based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                         Page 3
                              Tax Practitioners Promoting Abusive
                    Tax Shelters Are Still Able to Represent Taxpayers Before
                                  the Internal Revenue Service




                                 Results of Review

The OPR plays an important role in regulating the conduct of licensed tax professionals who act
as power of attorneys for taxpayers who might be involved in an audit, collection issues, or
appeal of an IRS determination, especially if these licensed professionals engage in tax abuses.
We determined that the OPR was unaware of a significant number of licensed tax practitioners
who were assessed penalties, sentenced in a criminal proceeding, or enjoined for tax shelter
violations because this misconduct may not have been referred by IRS employees as required.
As a result, the OPR did not initiate an investigation to determine whether any sanctions were
necessary to prevent disreputable practitioners from continuing to be allowed to represent
taxpayers.
During our audit, we obtained IRS data readily available outside of the OPR to identify
potentially disreputable tax practitioners engaged in abusive tax shelters that had not been
referred to the OPR as required. We discussed with OPR management the feasibility of OPR
personnel performing similar proactive analyses to identify tax practitioners who have been
assessed penalties, received a criminal sentence, or enjoined for potentially disreputable
behavior. OPR management agreed that obtaining some available information from IRS systems
is a sound approach; however, management stated that this would generally require extensive
additional information gathering and case building that is not supported by their current
resources.
The practitioner misconduct identified constitutes only a portion of the total number of
individuals assessed penalties, enjoined by Federal courts, or with criminal convictions that
might be representing taxpayers. Our scope included only tax shelter abuses reported during a
3-year period. In addition, we did not review State convictions or other types of Federal
Government convictions, such as those involving dishonesty, breach of trust, or a felony, that
could warrant sanction by the OPR. Practitioner misconduct can serve to erode public
confidence in the tax system and create unfortunate consequences for taxpayers relying on
unscrupulous tax practitioners. To effectively address practitioner misconduct, we believe the
OPR should reemphasize with IRS operating divisions the importance of the referral process in
identifying disreputable practitioners. In addition, we believe OPR management should consider
more proactive analyses, as resources become available, to minimize its reliance on referrals to
identify and investigate disreputable tax practitioners. Collectively, these actions will ensure that
OPR resources continue to be focused on practitioner misconduct most threatening to tax
administration and reduce the risk that disreputable tax practitioners are allowed to represent
taxpayers before the IRS.




                                                                                              Page 4
                                Tax Practitioners Promoting Abusive
                      Tax Shelters Are Still Able to Represent Taxpayers Before
                                    the Internal Revenue Service


Tax Practitioners Engaged in Abusive Tax Shelter Actions Are Still
Able to Practice Before the Internal Revenue Service
Depending on the severity of the tax shelter offense, the IRS may assess civil penalties, pursue
criminal sanctions, or request that the District Courts impose injunctions against persons
involved. We found that the OPR was not aware of a significant number of licensed tax
practitioners who perpetrated tax shelter abuses. The tax practitioners we identified had been
penalized, enjoined, and/or convicted of promoting or practicing significant tax shelter abuses
and were still able to represent taxpayers before the IRS. At the time of our audit, no
disciplinary action had been taken against these practitioners, thereby allowing them to continue
to represent taxpayers before the IRS.

Some practitioners assessed tax penalties for abusive tax shelter transactions
are still authorized to practice before the IRS
The IRS uses penalties as a means of encouraging voluntary compliance and deterring taxpayers
and tax practitioners from engaging in abusive tax shelters. IRS procedures require that an
information referral be sent to the OPR when specific tax shelter penalties are assessed on
licensed tax practitioners. This referral should be prepared by the IRS enforcement employee
who assessed the penalty against the licensed practitioner and enables the OPR to initiate a
proceeding for sanction against a practitioner who might have engaged in disreputable conduct.
We obtained information maintained on the Individual Master File 7 which tracked specific tax
shelter penalties assessed during Fiscal Years 2005 through 2007. During these 3 fiscal years,
the IRS assessed penalties 8 totaling $82.3 million for specific tax shelter violations against
1,175 individuals. We then researched the IRS Centralized Authorization File (CAF) 9 to
determine whether any of these individuals had represented taxpayers before the IRS. We also
researched State licensing authorities to determine whether any of these persons were licensed
tax practitioners.
Of the 1,175 individuals, we identified 280 that could potentially be licensed practitioners.
Based on our analysis, the OPR identified and took action on 137 (49 percent) of the
280 individuals who received tax shelter penalties. For these individuals, the OPR controlled the
case referral and applied sanctions for disreputable conduct where applicable.
However, we found that the OPR was not aware of a significant number of licensed tax
practitioners the IRS penalized for tax shelter violations. The OPR’s inventory system contained
no information on 73 (26 percent) of the 280 licensed tax practitioners. OPR management


7
  The IRS database that maintains transactions or records of individual tax accounts.
8
  See Appendix V for a list of penalties.
9
  A computerized system of records that houses authorization information from powers of attorney, tax information
authorizations, and estate tax returns.
                                                                                                          Page 5
                                 Tax Practitioners Promoting Abusive
                       Tax Shelters Are Still Able to Represent Taxpayers Before
                                     the Internal Revenue Service


believed that these cases were most likely not referred to them by the applicable IRS
enforcement personnel. These 73 practitioners were assessed penalties totaling approximately
$1.8 million for promoting abusive tax shelters. 10 Currently, these 73 penalized licensed tax
practitioners are identified on the CAF as representing 3,867 taxpayers before the IRS. These
taxpayers might be unaware that their licensed tax practitioners have been identified by the IRS
for tax shelter violations. This might result in the IRS assessing these taxpayers additional taxes,
penalties, and interest due to the incompetence or disreputable conduct of the tax practitioner.
In addition, the remaining 70 of the 280 tax practitioners are listed on the CAF as attorneys,
certified public accountants, or enrolled agents. We could not verify if the information on the
CAF was correct based on our review of information maintained by State licensing agencies or
the IRS’ Enrolled Agent computer system. 11 These 70 tax practitioners were assessed penalties
totaling approximately $1.4 million for promoting abusive tax shelters and are currently eligible
to interact with the IRS in some capacity for 4,920 taxpayers. If these 70 practitioners do not
have verifiable licenses, they would not be under the jurisdiction of the OPR. Therefore, the
applicable IRS function would be responsible for investigating the possible misrepresentations or
potential misconduct on the part of these non-licensed practitioners. 12
Section 10.53(a) of Circular 230 requires IRS employees to make a written report to the OPR
when there is reason to believe that a tax practitioner has violated the rules in Circular 230. In
performing its oversight role, the OPR relies on employees within the compliance functions to
refer cases when penalties are assessed as a result of an abusive tax shelter. OPR management
agreed that individuals assessed penalties for abusive tax shelters were not always referred by
IRS compliance employees and stated that the penalty referral process could be problematic if
the OPR is not notified when these types of penalties are assessed.
In a previous Treasury Inspector General for Tax Administration review, 13 several IRS operating
divisions were contacted to evaluate their procedures and processes to ensure that appropriate
cases are referred to the OPR. Although the IRS operating divisions had procedures to send
referrals to the OPR, they generally did not maintain a record or list of referrals sent to the OPR.
We previously reported that the OPR’s guidance is not sufficient to ensure that referrals are
consistently processed. At that time, management agreed with our recommendation to develop


10
   The penalties included intentional disregard of rules and regulations, willful and reckless conduct, as well as
aiding and abetting understatement of tax liability.
11
   The Enrolled Practitioner Program System is used to record and monitor individuals granted enrolled agent status
by the IRS.
12
   The IRS OPR oversees the regulation of practice of attorneys, certified public accountants, enrolled agents, and
other licensed professionals. If an abusive tax shelter involves a non-licensed authorized representative such as an
unenrolled paid preparer, then the IRS Small Business/Self-Employed Division will investigate and/or regulate the
possible misconduct.
13
   The Office of Professional Responsibility Can Do More to Effectively Identify and Act Against Incompetent and
Disreputable Tax Practitioners (Reference Number 2006-10-066, dated March 2006).
                                                                                                             Page 6
                              Tax Practitioners Promoting Abusive
                    Tax Shelters Are Still Able to Represent Taxpayers Before
                                  the Internal Revenue Service


procedures to better define which cases will be recorded on the OPR case management system
and how the source, nature, and outcome of referrals will be monitored to help target outreach
efforts. However, OPR management informed us in this audit that not all referrals received are
recorded on their inventory system, and they are in the process of evaluating procedures for
controlling and reviewing referrals. We believe that written procedures will ensure consistent
case processing and adherence to requirements and assist the OPR in operating more effectively.
OPR management informed us that prior to the second quarter of Fiscal Year 2008, they were
not recording on their inventory system referrals involving non-licensed practitioners or referrals
in which they did not plan to open an investigation against a licensed practitioner. In addition,
their current inventory system is unable to provide critical data on the source of referrals. We
believe referral source information would assist OPR management in potentially identifying
which IRS operating divisions have a low number of referrals and could be in violation of the
referral procedures. This information could be used by OPR management to target future
outreach activities to reinforce the requirement for employees to prepare written referrals
identifying potentially disreputable behavior by licensed practitioners. In addition,
improvements in the referral process will also positively affect the referrals of tax practitioners
involved with tax-related crimes other than tax shelter issues that warrant OPR involvement.
OPR management informed us they are planning to replace their current inventory system with a
new case management system in mid-2009, which should be able to provide information on the
source of referrals.

Recommendations
The Director, OPR, should:
Recommendation 1: Review the 143 identified tax practitioners penalized for abusive tax
shelter actions to determine whether additional disciplinary actions are warranted. If the
individuals do not fall under the jurisdiction of the OPR, then the Director should refer the cases
to the appropriate IRS function for applicable action.

       Management’s Response: Management agreed with the recommendation. The OPR
       will review the 143 identified tax practitioners penalized for abusive tax shelter
       transactions and take appropriate action. To the extent these practitioners are not within
       the OPR’s jurisdiction, the OPR will refer the individuals to the appropriate IRS function
       which will be responsible for investigating any potential misconduct on the part of these
       non-licensed practitioners.




                                                                                             Page 7
                                Tax Practitioners Promoting Abusive
                      Tax Shelters Are Still Able to Represent Taxpayers Before
                                    the Internal Revenue Service


based on our review of information maintained by State licensing agencies or IRS’ Enrolled
Agent computer system. These 7 tax practitioners caused an estimated harm to the Federal
Government of $13.9 million dollars and are currently eligible to represent 517 taxpayers before
the IRS. If these seven practitioners do not have verifiable licenses and are not under the
jurisdiction of the OPR, then the applicable IRS function should further investigate them for
possible misrepresentation or potential misconduct on the part of a non-licensed practitioner.

Recommendation
Recommendation 3: The Director, OPR, should review the nine identified tax practitioners
permanently enjoined for abusive tax shelter actions to determine whether additional disciplinary
actions are warranted. If the individuals do not fall under the jurisdiction of the OPR, then the
Director should refer the cases to the appropriate IRS function for applicable action.
        Management’s Response: Management agreed with the recommendation. The OPR
        will ensure that each of the nine cases involving abusive tax shelter injunctions are
        reviewed for appropriate action.

Some practitioners who have been convicted and sentenced for abusive tax
shelter activities have not been restricted from practicing before the IRS
For those taxpayers who commit severe tax offenses, the IRS pursues criminal sanctions.
Criminal Investigation Division special agents who investigate criminal offenses are required to
send a referral to the OPR related to misconduct by licensed practitioners. According to
Circular 230, the Director of the OPR may expedite suspension of any practitioner who, within
5 years, has been convicted of any tax-related crime, any crime involving dishonesty or breach of
trust, or any felony for which the conduct involved renders the practitioner unfit to practice
before the IRS. However, we identified some licensed tax practitioners criminally sentenced for
tax shelter abuses who were still authorized to represent taxpayers before the IRS at the time of
our audit.
Our review of the Criminal Investigation Division database for Fiscal Years 2005 through 2007
identified 40 individuals sentenced for tax shelter issues or abusive tax schemes. 15 Of the
40 individuals, we identified 30 that could potentially be licensed tax practitioners. We found
that the OPR took action to review and apply sanctions for 22 of the 30 criminally sentenced
practitioners. However, the OPR was unaware of and had not reviewed 5 (17 percent) of the
30 sentenced tax practitioners. These 5 tax practitioners were engaged in tax shelter schemes
that caused an estimated harm or loss to the Federal Government of $4.4 million and are
representing or still eligible to represent 249 taxpayers before the IRS.


15
  The Criminal Investigation Division database extract was pulled from its Criminal Investigation Management
Information System.
                                                                                                         Page 9
                              Tax Practitioners Promoting Abusive
                    Tax Shelters Are Still Able to Represent Taxpayers Before
                                  the Internal Revenue Service


Three of the 30 tax practitioners identified are listed on the CAF as attorneys, certified public
accountants, or enrolled agents. However, we could not verify if the information on the CAF
was correct based on our review of information maintained by State licensing agencies or IRS’
Enrolled Agent computer system. These 3 tax practitioners caused an estimated harm to the
Government of $10.9 million and are currently eligible to represent 261 taxpayers before the
IRS. If these three practitioners do not have verifiable licenses and are not under the jurisdiction
of the OPR, then the applicable IRS function should further investigate for possible
misrepresentation or potential misconduct on the part of a non-licensed practitioner.
OPR management informed us that they might not always receive referrals from the
Criminal Investigation Division at the point where they can initiate a proceeding for disreputable
conduct against a practitioner. For example, the Criminal Investigation Division can complete
an investigation involving a licensed practitioner and refer the case for prosecution to the DOJ
and at the same time refer the information to the OPR. However, the OPR will generally not
take action on a licensed practitioner until there is a final or decisive violation of Circular 230.
Further, we determined that the OPR does not have a consistent process to follow up with the
Criminal Investigation Division for referrals received once a final decision is made by the DOJ.
In our prior review, we recommended that the OPR work with other law enforcement agencies,
including the DOJ, to improve the referral process by obtaining timely, relevant conviction
information for tax crimes and State or Federal convictions involving dishonesty and breach of
trust in a format that is useful to the OPR. OPR management agreed in principle with our
recommendation, but believed they were doing all that could reasonably be done at that time.
We discussed again with OPR management the feasibility of OPR personnel obtaining data
readily available within the IRS to identify tax practitioners who have been assessed penalties,
received a criminal sentence, or enjoined for potentially disreputable behavior. OPR
management agreed that obtaining some available information from IRS systems was a sound
approach; however, management stated that this would generally require extensive additional
information gathering and case building that is not supported by their current resources. Given
the extreme nature of the violations committed by some of the licensed tax practitioners, we
believe the IRS needs to develop alternative approaches to protect tax administration and prevent
further abuses.




                                                                                            Page 10
                              Tax Practitioners Promoting Abusive
                    Tax Shelters Are Still Able to Represent Taxpayers Before
                                  the Internal Revenue Service


Recommendations
The Director, OPR, should:
Recommendation 4: Review the eight identified tax practitioners sentenced for abusive tax
shelter actions to determine whether additional disciplinary actions are warranted. If the
individuals do not fall under the jurisdiction of the OPR, then the Director should refer the cases
to the appropriate IRS function for applicable action.
       Management’s Response: Management agreed with the recommendation. The OPR
       will review the eight identified tax practitioners subject to criminal prosecution and
       determine whether additional disciplinary actions are warranted. If the individuals do not
       fall within the jurisdiction of the OPR, appropriate jurisdictional and disciplinary
       decisions will be made.
Recommendation 5: Initiate additional outreach efforts with other IRS functions to increase
awareness of the requirement to refer to the OPR for appropriate action licensed tax practitioners
involved in potentially disreputable behavior.
       Management’s Response: Management agreed with the recommendation. The OPR
       will continue to provide awareness training to both internal and external stakeholders to
       ensure that licensed tax practitioners involved in potentially disreputable behavior are
       brought to the attention of the OPR and are appropriately sanctioned.
Recommendation 6: Develop a methodology, when resources become available, to perform
proactive analyses of information available from other IRS functions, including the
Modernization and Information Technology Services organization, the Criminal Investigation
Division, and the Small Business/Self-Employed Division Lead Development Center, to identify
and appropriately address licensed tax practitioners engaged in potentially disreputable activity.
       Management’s Response: Management agreed with the recommendation. The OPR
       will look to develop and sustain a more proactive model of case identification and
       development, as resources permit.




                                                                                            Page 11
                                Tax Practitioners Promoting Abusive
                      Tax Shelters Are Still Able to Represent Taxpayers Before
                                    the Internal Revenue Service


                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective was to determine whether the OPR is effectively identifying and taking
appropriate actions against those licensed tax practitioners who have employed or promoted
abusive tax shelters. To accomplish this objective, we:
I.      Determined the procedures and guidance for the OPR and IRS employees regarding the
        identification, referral, discipline, and monitoring of abusive tax practitioners/preparers.
        A. Reviewed Treasury Regulations [e.g., Treasury Department Circular No. 230
           (Circular 230)], 1 Delegation Orders, and Revenue Procedures for tax
           practitioner/preparer requirements and IRS jurisdiction.
        B. Reviewed the Internal Revenue Manual for the Large and Mid-Size Business
           Division, Small Business/Self-Employed Division, and Criminal Investigation
           Division for requirements to identify and refer abusive tax practitioners/preparers to
           the OPR. We discussed with IRS functional employees how referrals are developed
           and sent to the OPR.
        C. Discussed with OPR management their current strategic priorities.
        D. Obtained workload information for the OPR that included current Business
           Performance Reviews, staffing information, and budgets.
II.     Determined whether the OPR is effectively able to identify or investigate those tax
        practitioners who have been penalized for tax shelter violations.
        A. Obtained an Individual Business Master File 2 extract of all tax shelter and
           understatement of liability penalties (by IRS Master File penalty reference numbers)
           assessed during Fiscal Years 2005, 2006, and 2007. We determined the data were
           reliable by comparing and matching extracted data to online data listed on the IRS
           Integrated Data Retrieval System. 3
        B. Identified licensed practitioners with assessed tax shelter or tax avoidance penalties
           during Fiscal Years 2005 through 2007 from the IRS Master File extract and

1
  Regulations Governing the Practice of Attorneys, Certified Public Accountants, Enrolled Agents, Enrolled
Actuaries, Enrolled Retirement Plan Agents, and Appraisers before the Internal Revenue Service (Rev. April 2008).
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
3
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                        Page 12
                             Tax Practitioners Promoting Abusive
                   Tax Shelters Are Still Able to Represent Taxpayers Before
                                 the Internal Revenue Service


           discussed with OPR management those tax practitioners who were penalized but were
           not identified by the OPR and were listed on the CAF without restrictions.
III.   Determined whether the OPR is effectively able to identify or investigate those tax
       practitioners who have been enjoined (Civil Injunction) or convicted for employing or
       promoting abusive tax shelters.
       A. Obtained a database extract from the IRS Small Business/Self-Employed Division
          Lead Development Center inventory system of individuals who were permanently
          enjoined for abusive tax shelter promotions, schemes, or transactions during
          Fiscal Years 2005, 2006, and 2007. We determined the data were reliable by
          comparing and matching extracted data to online Small Business/Self-Employed
          Division internet web site data and DOJ internet web site data.
       B. Identified licensed practitioners who were enjoined for abusive tax shelter actions
          during Fiscal Years 2005 through 2007 and discussed with OPR management those
          tax practitioners who were not identified by the OPR and were listed on the CAF
          without restrictions.
       C. Obtained a database extract from the IRS Criminal Investigation Division inventory
          system of individuals who were sentenced for abusive tax shelter promotions,
          schemes, or transactions during Fiscal Years 2005, 2006, and 2007. We determined
          the data were reliable by comparing and matching extracted data to online Criminal
          Investigation Division internet web site data and DOJ internet web site data.
        D. Identified licensed practitioners who were sentenced for abusive tax shelter actions
           during Fiscal Years 2005 through 2007 and discussed with OPR management those
           tax practitioners who were not identified by the OPR and were listed on the CAF
           without restrictions.

Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the various IRS operating divisions’
policies and procedures for referring to the OPR licensed tax practitioners who were assessed
penalties, enjoined, and/or sentenced for abusive tax shelter actions. We evaluated these controls
by interviewing management and reviewing applicable information and documents.




                                                                                          Page 13
                           Tax Practitioners Promoting Abusive
                 Tax Shelters Are Still Able to Represent Taxpayers Before
                               the Internal Revenue Service


                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Janice M. Pryor, Audit Manager
Joseph P. Smith, Acting Audit Manager
Mark A. Judson, Lead Auditor
John J. Chiappino, Senior Auditor
Stephanie K. Foster, Senior Auditor
Yasmin B. Ryan, Senior Auditor
Ahmed M. Tobaa, Senior Auditor
Arlene Feskanich, Information Technology Specialist
Martha Stewart, Information Technology Specialist




                                                                                  Page 14
                           Tax Practitioners Promoting Abusive
                 Tax Shelters Are Still Able to Represent Taxpayers Before
                               the Internal Revenue Service


                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Chief Technology OS:CTO
Director, Customer Account Services Consolidation, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Associate Chief Information Officer, Business Systems Development OS:CIO:I:B
Director, Compliance Services, Chief Information Officer OS:CIO:I:B:CS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Director, Office of Professional Responsibility SE:OPR




                                                                                  Page 15
                       Tax Practitioners Promoting Abusive
             Tax Shelters Are Still Able to Represent Taxpayers Before
                           the Internal Revenue Service


                                                                                              Appendix V

Internal Revenue Code Practitioner Penalties

 Code
 Section       Description                                                    Penalty
 6700          Promoting abusive tax shelter                                  Lesser of $1,000 or
                                                                              100 percent of gross
                                                                              income derived from
                                                                              the activity.
 6701          Aiding and abetting understatement of tax liability            $1,000 per person
                                                                              per period.
 6707          Failure to furnish information regarding tax shelters          Multiple
                                                                              calculations.
 6707A         Failure to disclose reportable transaction                     $10,000/natural
                                                                              person or
                                                                              $50,000/other
                                                                              taxpayer.
 6708          Failure to maintain list relating to reportable transactions   $10,000 per day
                                                                              after failure to
                                                                              provide list.
 6694(a)       Understatement of taxpayer’s liability by Return Preparer      $250 per return or
                                                                              claim.
 6694(b)       Understatement of taxpayer’s liability due to intentional      $1,000 per return or
               disregard of rules and regulations or to willful or reckless   claim.
               conduct
Source: Internal Revenue Code.




                                                                                                     Page 19
               Tax Practitioners Promoting Abusive
     Tax Shelters Are Still Able to Represent Taxpayers Before
                   the Internal Revenue Service


                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 20
          Tax Practitioners Promoting Abusive
Tax Shelters Are Still Able to Represent Taxpayers Before
              the Internal Revenue Service




                                                      Page 21
          Tax Practitioners Promoting Abusive
Tax Shelters Are Still Able to Represent Taxpayers Before
              the Internal Revenue Service




                                                      Page 22
          Tax Practitioners Promoting Abusive
Tax Shelters Are Still Able to Represent Taxpayers Before
              the Internal Revenue Service




                                                      Page 23
